 

C@OCKLE

2311 Douglas Street + E-Mail Address:
Omaha, Nebraska 68102-1214 L ega l B ae ae contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-
MARCUS LEE ROBINSON,
Petitioner,
Vv.
COLORADO,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of March, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar

days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

MEGAN RING STUART BANNER
LYNN NOESNER Counsel of Record
Colorado State Public UCLA School of Law
Defender Supreme Court Clinic
1300 Broadway 405 Hilgard Ave.
Suite 300 Los Angeles, CA 90095
Denver, CO 80203 (310) 206-8506

banner@law.ucla.edu

Subscribed and sworn to before me this 26th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

ee | Koc. 2 Qi tlass? Onda be Ole

 

(My Comm. Exp. September 5, 2023 7

Notary Public

39660
SERVICE LIST

Doyle Baker

Senior Deputy District Attorney
Office of the District Attorney
Fourth Judicial District

105 East Vermijo Ave., Suite 500
Colorado Springs, CO 80903
(719) 520-6000
doylebaker@elpasoco.com
Counsel for Respondent
